NRC’S RESPONSE TO THE FEBRUARY 15,
   2000, STEAM GENERATOR TUBE
     RUPTURE AT INDIAN POINT
        UNIT 2 POWER PLANT

    CASE NO. 00-03S   August 29, 2000
     OFFICE OF THE INSPECTOR GENERAL
              EVENT INQUIRY




               NRC’S RESPONSE TO THE FEBRUARY 15, 2000,
                   STEAM GENERATOR TUBE RUPTURE
                  AT INDIAN POINT UNIT 2 POWER PLANT

                               CASE NO. 00-03S




Lisa Pace, Special Agent                   Richard Scenna, Team Leader




                               James E. Childs
                             Assistant Inspector
                           General for Investigations
                                        August 29, 2000




MEMORANDUM TO:               Chairman Meserve


FROM:                        Hubert T. Bell /RA by David C. Lee Acting For/
                             Inspector General


SUBJECT:                     EVENT INQUIRY - NRC’S HANDLING OF ISSUES
                             ASSOCIATED WITH THE FEBRUARY 15, 2000, STEAM
                             GENERATOR TUBE RUPTURE AT INDIAN POINT UNIT 2
                             POWER PLANT
                             (CASE NO. 00-03S)


Attached is an Office of the Inspector General (OIG), U.S. Nuclear Regulatory Commission
(NRC), Event Inquiry concerning the NRC’S handling of issues associated with the February 15,
2000, steam generator tube rupture at Indian Point Unit 2 Power Plant. This inquiry was
initiated to address concerns raised by the public and Congress as a result of the steam
generator tube rupture.

Please call me if you have any questions regarding this Event Inquiry. This report is furnished
for whatever action you deem appropriate. Please notify this office within 90 days of what
action, if any, you take based on the results of this Event Inquiry.

Attachment: As stated

cc w/attachment:      Commissioner Dicus
                      Commissioner Diaz
                      Commissioner McGaffigan
                      Commissioner Merrifield
                      William D. Travers, EDO
                                         TABLE OF CONTENTS


                                                                                                                  Page

BASIS AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

CHRONOLOGY OF SIGNIFICANT EVENTS . . . . . . . . . . . . . . . . . . . . . . . . . 3

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

DETAILS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          I.      NRC’s Handling of Licensee Actions Associated with the
                  IP2 Steam Generator Tube Rupture . . . . . . . . . . . . . . . . . . . . . . . . 11

         II.      NRC Oversight of IP2 Emergency Preparedness . . . . . . . . . . . . . 24

         III.     Adequacy of NRC Staff’s Review of IP2 Restart Proposal . . . . . . 31

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

DIAGRAM OF NUCLEAR POWER PLANT (PWR) . . . . . . . . . . . . . . . . . . . . 34

DIAGRAM OF STEAM GENERATOR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

LIST OF ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

GLOSSARY OF TECHNICAL TERMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
                                    BASIS AND SCOPE


The Office of the Inspector General (OIG) initiated this inquiry to address concerns raised by the
public and Congress as a result of a steam generator tube rupture at the Indian Point Unit 2
Power Plant (IP2). The licensee of IP2 is the Consolidated Edison Company of New York, Inc.
(ConEd). On February 15, 2000, IP2, a pressurized water nuclear reactor plant, experienced the
steam generator tub rupture in one of its four steam generators. This rupture which resulted in a
leak, allowed radioactive water which acts to cool the reactor, to mix with nonradioactive water
in the steam generator. The nuclear reactor was manually shut down. This event led to IP2
declaring an “Alert” which is the second level of emergency action in the U.S. Nuclear
Regulatory Commission (NRC) required emergency response plan. The February 15, 2000,
event resulted in a minor radiological discharge to the atmosphere. Subsequent to the steam
generator tube rupture, there were concerns that the NRC was aware of previous problems with
IP2's steam generators and did not take adequate action to have the problems corrected.

This OIG Event Inquiry addressed three issues regarding the IP2 steam generator tube rupture.
The first issue reviewed was the adequacy of the NRC staff’s handling of actions by IP2
associated with the steam generator tube rupture. The second issue involved a review of the
NRC’s handling of shortcomings identified in the IP2 Emergency Preparedness Plan. The third
issue addressed in this OIG inquiry relates to the adequacy of the NRC staff’s review of the
ConEd proposal to restart IP2 after the February 15, 2000, shutdown.




                                                2
                  CHRONOLOGY OF SIGNIFICANT EVENTS


DATE                                             EVENT

August 1, 1974             NRC issues operating license to Indian Point Unit 2
                           Nuclear Power Plant (IP2), a pressurized water reactor
                           (PWR).

October 1989               IP2 receives four new steam generators from
                           Westinghouse. IP2 reports intent to change out steam
                           generators in the early 1990s.

August 6, 1990             NRC issues Information Notice 90-49, “Stress Corrosion
                           Cracking in PWR Steam Generator Tubes,” to inform
                           licensees of PWRs of recent problems involving stress
                           corrosion cracking in PWR steam generator tubes.

August 3, 1994             NRC issues SECY 94-202, “Issuance of an Advanced
                           Notice of Proposed Rulemaking on Steam Generator
                           Maintenance and Surveillance,” to inform the Commission
                           of proposed steam generator rulemaking.

August 30, 1994            NRC issues Information Notice 94-62, “Operating
                           Experience on Steam Generator Tube Leaks and Tube
                           Ruptures,” to inform licensees of PWRs of recent
                           operational experience with steam generator tube leaks and
                           tube ruptures.

April 28, 1995             NRC issues Generic Letter 95-03, “Circumferential
                           Cracking of Steam Generator Tubes,” to alert licensees
                           about the importance of performing comprehensive
                           examinations of steam generator tubes using appropriate
                           inspection techniques and equipment capable of detecting
                           degradation.

August 3, 1995             NRC issues Generic Letter 95-05, “Voltage-Based Repair
                           Criteria for Westinghouse Steam Generator Tubes Affected
                           by Outside Diameter Stress Corrosion Cracking,” to
                           licensees on alternate steam generator repair criteria
                           applicable.




                                     3
September 20, 1995   NRC issues Information Notice 95-40, “Supplemental
                     Information to Generic Letter 95-03, ‘Circumferential
                     Cracking of Steam Generator Tubes’” to licensees
                     discussing steam generator tube examination results from
                     Maine Yankee Atomic Power Station. IN 95-40 provides
                     findings of a comparative analysis of various techniques
                     used in the examination and compares the sensitivity of a
                     high frequency eddy current probe to a standard eddy
                     current probe in the detection of inner diameter cracking.

June 21, 1996        NRC issues Information Notice 96-38, “Results of Steam
                     Generator Tube Examinations,” to inform licensees of
                     PWRs about current results of steam generator
                     examinations and the importance of controlling and
                     optimizing test variables such as probe design and
                     frequencies for inner diameter initiated indications versus
                     outer diameter initiated indications.

April 9, 1997        NRC approves IP2 license amendment number 189 to
                     allow an extension of the steam generator inspection
                     interval from April 14, 1997 to May 2, 1997.

May 19, 1997         NRC issues Information Notice 97-26, “Degradation in
                     Small-Radius U-Bend Regions of Steam Generator Tubes,”
                     to inform licensees of PWRs about recent degradation
                     affecting the small radius (Rows 1 & 2) U-bend regions of
                     tubes in recirculating steam generators.

June 30, 1997        IP2 restart is initiated following steam generator tube
                     inspection.

July 8, 1997         NRC Office of Public Affairs issues “Technical Issues
                     Papers and Fact Sheets: Steam Generator Tube Issues”
                     which serves to focus attention on the significance of steam
                     generator tube integrity, the need to be vigilant in
                     monitoring steam generator tube degradation, and the
                     importance of inservice inspections of steam generators.

July 29, 1997        IP2 submits their 1997 steam generator tube inspection
                     report to the NRC.

October 25, 1997     IP2 is shutdown for an unscheduled maintenance outage.

December 16, 1997    NRC issues Information Notice 97-88, “Experiences

                                4
                    During Recent Steam Generator Inspections,” to inform
                    licensees of PWRs about findings from recent inspections
                    of steam generator tubes and secondary-side internal
                    components.

July 24, 1998       NRC issues Information Notice 98-27, “Steam Generator
                    Tube End Cracking,” to inform licensees of instances of
                    steam generator tube-end cracking.

August 5, 1998      IP2 restarts operation after being in cold shutdown
                    condition for 304 days.

December 1998       NRC issues Draft Regulatory Guide DG-1074, “Steam
                    Generator Tube Integrity,” to provide guidance about steam
                    generator tube integrity.

December 7, 1998    IP2 submits license amendment number 201 to the NRC
                    requesting to modify its technical specifications to allow a
                    one-time extension of the steam generator inspection
                    interval from June 13, 1999 to June 13, 2000.

May 5, 1999         NRC issues a request for additional information (RAI)
                    regarding IP2's license amendment number 201.

May 12, 1999        IP2 submits its response to NRC’s RAI.

June 9, 1999        NRC approves IP2 license amendment number 201 to
                    allow an extension to the steam generator inspection
                    interval to coincide with the year 2000 refueling outage
                    and, NRC approves the removal of the requirement that IP2
                    receive NRC concurrence on proposed steam generator
                    examination program.

February 3, 2000    Main steam line radiation monitors register leakage from
                    steam generator number 24.

February 6, 2000    The leakage monitor alarms indicating a 1.5 gallons per day
                    (gpd) leak rate from steam generator number 24.

February 10, 2000   Leak rate trend shows leakage has increased to 3.5 gpd.



February 15, 2000   7:15 p.m. - The steam generator number 24 leakage

                              5
                    monitor shows a leak rate of 3.4 gpd.

February 15, 2000   7:17 p.m. - Both the steam generator number 24 leakage
                    monitor and condenser air monitor alarm.

February 15, 2000   7:29 p.m. - IP2 declares an ‘Alert’ and operators manually
                    shut down the reactor. The tube leakage rate was
                    approximately 146 gallons per minute (gpm).

February 15, 2000   7:41 p.m. - IP2 notifies state and county authorities and
                    NRC Resident Inspector.

February 15, 2000   8:49 p.m. - NRC enters ‘Standby’ response mode.

February 15, 2000   11:35 p.m. - NRC downgrades response to ‘Monitoring’
                    mode.

February 16, 2000   2:20 p.m. - The primary plant pressure is reduced below
                    that of the number 24 steam generator to terminate the tube
                    leakage.

February 16, 2000   4:56 p.m. - IP2 achieves cold shut down, meaning the
                    reactor coolant system temperature is below 200 degrees
                    Fahrenheit.

February 16, 2000   7:15 p.m. - NRC exits ‘Monitoring’ mode and returns to
                    normal operation.

February 18, 2000   NRC Region I dispatched an Augmented Inspection Team
                    (AIT) to review the steam generator tube rupture event




                              6
                                             BACKGROUND


Function of Steam Generators in PWRs

There are two types of nuclear power plants being used in the United States to produce
electricity, the boiling water reactor (BWR) and the pressurized water reactor (PWR). In PWR
plants like IP2, water which serves to cool the reactor is contained in the ‘primary system.’ This
water is heated by the nuclear reactor to about 600 degrees Fahrenheit. However, because the
water flows through the reactor vessel under very high pressure, it is prevented from boiling.
Since this water surrounds the nuclear reactor, it contains radioactive fission products. The
superheated water flows from the reactor to the steam generator. Inside the steam generator, the
hot water flows through numerous tubes. Uncontaminated water from the ‘secondary system,’
which is external to the nuclear reactor, enters and flows around the outside of the steam
generator tubes and becomes heated. It should be noted that water from the primary system does
not normally mix with water from the secondary system. When the secondary system water
absorbs sufficient heat, it boils and forms steam. Once steam is formed, it is piped to the main
turbine which, in turn, drives an electrical generator resulting in a flow of electricity.

NRC and Industry Concerns Regarding PWR Steam Generator Tube Integrity

In the 1970s, the NRC and the nuclear industry began to identify problems relating to the
integrity of the steam generator tubes in PWRs. Tube integrity ensures that the tubes are capable
of performing their intended function. The pressurized water inside the steam generator tubes
contains radioactive reactor fission products. The concerns raised relative to steam generator
tube integrity were centered on the fact that steam generator tube failures could result in
radioactive primary system water entering the uncontaminated secondary system water. Such an
occurrence could result in a release of contaminated steam to the environment. The NRC and
nuclear industry became concerned about steam generator tube integrity because the steam
generator tubing was, and continues to be, subject to a variety of corrosion and mechanically
induced degradation mechanisms.

Degradation Found in PWR Steam Generator Tubes

In 1975, the NRC was informed by Westinghouse Electric Corporation that several plants which
it designed had experienced steam generator tube degradation in the form of a reduction in tube
diameter, later termed “tube denting.” IP2 was one of the PWR facilities that suffered steam
generator tube denting. It was noted at that time that dented tubes were susceptible to stress
corrosion cracking.

The NRC and nuclear industry research data revealed that early models of commercial nuclear
power plant steam generator tubes were formed from Alloy 600, a corrosion-resistant high-nickel
blend. Eight nuclear plants, including IP2, had Westinghouse Model 44 steam generators that
used Alloy 600 material for tubing. Most of the steam generator tubes which required repair over

                                                7
the years have been Alloy 600 tubes. The reason these steam generator tubes have required
repairs was corrosive products (typically magnetite and cooper) accumulating in and around the
tube and tube support plates. These corrosive products cause tubes to dent, which can result in
the tubes developing stress corrosion cracks. IP2 is one plant that had begun accumulating
magnetite and copper in its steam generators.

The degradation problems particular to Westinghouse Model 44 steam generators resulted in
seven plants replacing their steam generators. IP2 is the only plant with Westinghouse Model 44
steam generators that has not replaced its steam generators. Nuclear power plants with
Westinghouse Model 44 steam generators that have replaced their steam generators are:



 Plants                           Commercial Operation Dates       Replacement Dates
 Ginna                            07/1970                          06/1996
 Point Beach 1                    12/1970                          03/1983
 H.B. Robinson                    03/1971                          10/1984
 Point Beach 2                    10/1972                          12/1996
 Turkey Point 3                   12/1972                          04/1982
 Turkey Point 4                   09/1973                          05/1983
 Indian Point 2                   08/1974                          N/A
 Indian Point 3                   08/1976                          06/1989


In August 1990, the NRC issued Information Notice (IN) 90-49: “Stress Corrosion Cracking in
PWR Steam Generator Tubes” to holders of nuclear power plant operating licenses or those
requesting construction permits for PWRs. The information notice was intended to inform
licensees of problems involving stress corrosion cracking in PWR steam generator tubes. The IN
stated that in light of available technology, reliable detection and sizing of stress corrosion
cracking during inservice inspections posed a significant challenge.

Over the years, the NRC and nuclear industry found that the small U-bend regions of the steam
generator tubes in particular were exhibiting stress corrosion cracking. In 1997, the NRC,
cognizant of the U-bend degradation, issued IN 97-26: “Degradation in Small-Radius U-Bend
Regions of Steam Generator Tubes” to all holders of nuclear power plant operating licenses or
those requesting construction permits for PWRs. The purpose of IN 97-26 was to disseminate
information about degradation which was affecting small-radius (rows 1 and 2) U-bend regions
of steam generator tubes and to alert utilities of potential problems associated with ensuring the
integrity of the small-radius U-bends. IN 97-26 noted that licensees that used Westinghouse-

                                                 8
designed steam generators had, for many years, identified indications of stress corrosion cracking
in the U-bend regions of tubes with small radii. During the late 1970s and early 1980s, many
nuclear power plants plugged the small-radius U-bend tubes as a preventive measure to avoid
leakage. Further, IN 97-26 advised licensees that the susceptibility to cracking in small-radius U-
bends and the findings of recent field inspections emphasized the importance of inspections of
this area of steam generators with techniques capable of accurately detecting U-bend degradation.

Maintaining PWR Steam Generator Tube Integrity

The NRC established requirements for steam generator tube integrity. The NRC required that
steam generator tubes have an extremely low probability of abnormal leakage and be periodically
inspected and tested. The performance of inservice inspections (ISIs) by licensees was and
continues to be a critical element in maintaining steam generator tube integrity. The scope and
frequency of these inspections vary from plant to plant based on the extent of the degradation.
The requirements for inspection frequency and scope are based primarily on experience,
engineering judgement, and practicality. The frequency is intended to coincide with refueling
outages so that regular inspections will not unnecessarily affect plant availability and cause
needless expense. The scope of a typical steam generator tube inspection consists of selecting a
representative tube sample for examination. For plants with extensive amounts of degradation,
100 percent of the tubes are inspected at every outage. Individual plants specify in the Technical
Specifications portion of their licenses that ISIs are to be performed at periodic intervals. It
should be noted that Technical Specifications are part of NRC licenses that dictate the conditions
under which a plant can operate. Technical Specifications include safety limits, conditions for
operations, surveillance and oversight requirements, design features and administrative controls.

Traditional methods for performing ISIs of steam generators in the 1970s proved inadequate for
the reliable detection and sizing of cracks. As a result, the nuclear industry developed improved
inservice inspection methods capable of detecting cracks before tube integrity was potentially
impaired. However, use of these improved inspection methods varied from plant to plant. In
addition, inspection data analysis procedures and data analyst training had, in a number of
instances, proven inadequate. The NRC and industry recognized that deficiencies in this area
could result in tube flaws being overlooked during the inspection and data evaluation process.
As a result, in 1995 the NRC issued Generic Letter (GL), GL95-03 “Circumferential Cracking of
Steam Generator Tubes,” that emphasized the importance of performing comprehensive
examinations of steam generator tubes using appropriate inspection techniques and equipment
capable of reliably detecting steam generator tube degradation.




                                                9
Steam Generator Tube Rupture at Indian Point Unit 2

In the 25 years since the NRC became aware of steam generator tube degradation, there have
been seven PWR steam generator tube ruptures in commercial nuclear power plants, all
involving tubes fabricated from Alloy 600. IP2 has had four forced outages caused by tube leaks.


On February 15, 2000, IP2 experienced a rupture in one of its Westinghouse Model 44 steam
generator tubes which allowed water from the reactor to leak into the steam generator. The leak
of primary system water contaminated the secondary system and resulted in a minor discharge of
radioactive steam to the atmosphere.

IP2 has four steam generators that are designated as the numbers 21, 22, 23, and 24. Each steam
generator contains 3260 Inconel Alloy 600 tubes. The failed tube was identified as the row 2,
column 5 tube, a tight radius U-bend tube, in the number 24 steam generator. Upon visual
inspection of the rupture area, the flaw was characterized as a crack, approximately 2 to 3 inches
in length. The steam generator tube rupture resulted in a primary system to secondary system
leak which discharged approximately 146 gallons of water per minute. As a result, IP2 declared
an “Alert”; the second level of emergency action in the NRC required emergency response plan.
In compliance with its technical specification, IP2 initiated plant shut down after 13 minutes.
The leak was terminated after about 19 hours. During this time, an estimated 19,197 gallons of
contaminated primary system water transferred to the secondary system. The radioactive water
which was generated as a result of this event was eventually processed (filtered, demineralized
and sampled) to reduce the amount of radioactive material to within acceptable regulatory levels.
The treated water was then discharged into the Hudson River during several controlled releases.
The NRC assessment of radioactive steam releases during the February 15, 2000, incident
concluded that the total radioactivity released to the environment was relatively small and within
regulatory limits.




                                                10
                                           DETAILS


I.     NRC’s Oversight of Events Leading Up to the February 15, 2000, Steam Generator
       Tube Rupture at IP2

Region I Had Identified Weaknesses at IP2

IP2 is located in Buchanan, New York, and is under the regulatory oversight of NRC’s Region I.
Region I is responsible for the implementation of the NRC’s inspection program at the nuclear
facilities within the northeast region of the United States.

The Region has established a three-pronged approach in its oversight of IP2; resident inspector
inspections, routine regional inspections and special inspections. According to the Region I
management and staff, IP2 has received considerable inspection and management attention over
the last few years. One Region I manager noted that “IP2 has been languishing around as a plant
that we in the Region have been concerned about for a number of years now . . .”.

Through its inspection and oversight efforts, Region I has found that IP2 has been challenged
with identifying and correcting problems at the plant. Region I staff and mangers stated that IP2
has had a number of performance issues since the mid-1990s. Specifically, Region I has been
concerned with two key areas at IP2: (1) a lack of a robust corrective action program and (2) a
lack of a critical self-assessment process. Region I also discovered shortcomings in IP2's
emergency preparedness program which were documented in Region I inspection reports.
However, the Region has never believed that IP2 was unsafe to operate or warranted being shut
down.

NRC Oversight of Steam Generators at IP2

OIG learned that, although historically Region I has provided IP2 with enhanced oversight, the
Region did not focus specifically on the plant’s steam generators. According to the Region I
Administrator, the Region did not view steam generators as significant in the overall oversight
and regulation of IP2. During IP2's 1997 refueling outage, Region I conducted a special
inspection to assess the effectiveness of IP2's ISI program with particular emphasis on the
inspection of the steam generators. Region I’s special inspection focused on IP2's use of the
steam generator testing procedures and the qualification and certification of personnel conducting
the steam generator tube examination. The Region I inspector who conducted this inspection
told OIG that this was not a physical inspection of IP2's steam generators but rather a document
review of how IP2 conducted its ISI program. This was the last time Region I conducted a
review of IP2's steam generator ISI program. This Region I inspector told OIG that more
regional oversight of IP2 steam generators could have enhanced the performance of IP2 and
possibly prevented the steam generator tube failure in February 2000.



                                               11
NRC Senior Managers Had Identified Broad Performance Issues at IP2

OIG reviewed the minutes of the May 2000 NRC Senior Management Meeting (SMM) and noted
the following commentary by NRC senior management on past performance issues at IP2:

       From late 1998 to the August 1999 event, the plant was on-line for an extended
       time; however, during that time, NRC inspection findings continued to illustrate
       corrective action program performance problems, work control problems, and
       lapses in engineering support. During this same time frame, there was also some
       buildup of equipment deficiencies and some loss of licensee focus on their
       improvement plan.

The following excerpt of the minutes described the reasoning behind the past level of oversight
provided to IP2 by the NRC senior managers:

       Indian Point 2 was discussed at SMMs between June 1997 and July 1998. At the July
       1998 meeting, the senior managers determined that considerations for maintaining agency
       attention and giving the licensee a period of time to execute its performance improvement
       initiatives outweighed those for increasing agency attention and that no agency level
       action was required. The plant was not discussed at the April 1999 SMM.

The following excerpt was commentary on risk significant events at IP2 covering the May 1999
to May 2000 SMM review period:

       The first significant event involved an August 1999 automatic reactor shutdown
       that was complicated by an electrical transient that adversely affected important
       safety-related equipment and control annunciators. The electrical transient was
       caused and aggravated by plant equipment deficiencies and configuration control
       problems. . . . In February 2000, a second significant event occurred. A steam
       generator tube failed which resulted in declaration of an Alert.

       In both of these events, the senior managers noted concerns that illustrate a
       number of longstanding performance issues. . . . The senior managers further
       were concerned with recurrent emergency preparedness weaknesses that have
       hampered performance during exercises and during the August 1999 and February
       2000 events.

IP2 Examination of Steam Generators in 1997

On June 13, 1997, IP2 completed an inservice inspection of the steam generator tubes during the
plant’s 13th refueling outage. IP2's Technical Specification (TS), 4.13.A.2.a - Extent and
Frequency of Examination, requires the licensee to conduct steam generator examinations no less
than 12 and no later than 24 calendar months after the previous examination. Under TS 4.13.C.1,
IP2 is required to submit its proposed steam generator inspection plan to the NRC at least 60

                                               12
days prior to each scheduled examination. IP2 is required by TS 4.13.C.2 to submit the results of
each steam generator inspection to the NRC within 45 days after the completion of the
examination. OIG ascertained that both of these documents were forwarded to the cognizant
NRC program office, the Office of Nuclear Reactor Regulation (NRR), within the allotted time.

OIG learned that on June 3, 1997, in a telephone conference call with the staff of NRR, a Region
I reactor engineer, and the Region I Branch Chief of Civil Mechanical and Material Engineering,
IP2 verbally provided details concerning their ongoing 1997 steam generator examination.
During this telephone conference call, IP2 informed the call participants that testing had
identified a new degradation mechanism of stress corrosion cracking of the outside diameter of
steam generator tubes.

NRC Staff Receive the 1997 Inspection Report from IP2

On July 29, 1997, IP2 submitted the 1997 steam generator inspection report to the NRC. The
report stated that the examination included a 100 percent inspection of the U-bends of rows 2 and
3 in steam generators 21, 22, 23, and 24. The examination was conducted using either a Cecco-5
or a Plus Point probe, to the extent possible, and a rotating pancake coil probe to examine the
tube U-bends if the narrow radii of the bends precluded passage of the other probes. The
inspection report concluded that the 1997 steam generator tube inservice examination
demonstrated that the IP2 steam generators were acceptable for continued service at full power.

OIG was told that plant licensing actions, such as amendment requests, are coordinated through a
Project Manager in the Division of Licensing and Project Management Directorate (DLPM) of
NRR who is assigned responsibility for specific plants. The assigned Project Manager acts the
point of contact for the nuclear power plant on any licensing action and is responsible for
ensuring that required technical reviews are forwarded to the Materials and Chemical
Engineering Branch (EMCB), which is the branch responsible for assessing the technical
adequacy of licensee inspections and preparing safety evaluation reports. The Project Manager is
also responsible for ensuring that staff technical questions submitted to a licensee in the form of a
request for additional information (RAI) are appropriate and not burdensome on the licensee.

OIG learned that neither the Region I nor NRR staff conducted a technical review of IP2’s 1997
steam generator tube inservice inspection report when it was submitted in July 1997. The Project
Manager assigned to IP2 from 1996 to 2000, told OIG that steam generators are outside of his
area of expertise. He stated he had only an elementary understanding of nondestructive
examination methods; consequently, he conducted what amounted to a cursory review of IP2’s
1997 steam generator inspection results. The Project Manager told OIG that he assumed the
EMCB technical staff, who also received a copy of the steam generator inspection results,
reviewed the report and were satisfied with the data. The Project Manager said that, although the
NRC has technical staff with expertise to conduct a technical review of steam generator
inspection reports and NRR often consults with a technical contractor to assist in the review, the
staff does not spend a great deal of time reviewing the inspection results. The Project Manager
commented that the staff relies on the industry and the licensees to evaluate the steam generator

                                                 13
inspection data. The Project Manager felt that the NRC lacked the manpower and resources to
conduct a comprehensive review of the steam generator inspection data and, even if the NRC had
the assets, such a review would not have prevented the tube rupture. The Project Manager told
OIG that licensees contract for their steam generator inspections, and IP2 contracted with
Westinghouse, the manufacturer of IP2 steam generators, to perform their inspections.

OIG reviewed the Project Managers Handbook which delineates the role and duties of an NRR
Project Manager. Section 5.1 of the Project Managers Handbook discusses the various processes
the Project Manager uses to evaluate the performance of a licensee, to include reviewing
inspection reports and consulting with the technical review branch as necessary.

The staff of the Division of Reactor Projects, Region 1, as well as both staff and management of
EMCB, NRR, explained to OIG that NRC requirements do not direct the staff to review steam
generator inspection reports for quality or sufficiency. The Section Chief, EMCB, told OIG that
the licensees are required to submit the inspection results, but there is no requirement for the
NRC staff to review the inspection report and they are not typically reviewed. The Section Chief
said that inspection reports are considered “historical information” and are retained by the staff in
the event questions arise. The Director of the Division of Engineering, NRR, told OIG that
although not all inspection results are reviewed, reports which are deemed important do receive
staff attention.

The Director of NRR told OIG that there is a need to verify information submitted by the licensee
and to provide independent reviews. He said that NRR Project Managers coordinate the review
of the inspection results and arrange technical staff support. The Director said that the review is
dependent on the expertise of the Project Manager, and the Project Manager determines what
input is needed to write a safety evaluation report. The Director commented that technical
contractors may be hired for independent data reviews, and, as necessary, NRR can engage the
Office of Nuclear Regulatory Research (RES) for their expertise. The Director said that the NRC
looks to the Project Managers to be aware, in a general sense, of what is happening at the nuclear
power plant over which they have oversight. He said that the NRC regions no longer have the
expertise to look at steam generators and they defer to the program office at NRC headquarters to
provide technical oversight. The Director of NRR told OIG that NRR staff review of steam
generator inspections varies from plant to plant based on technical specifications requirements,
staff sensitivity to the condition of the plant’s steam generators, staff availability, and work load.

OIG noted that in July 1997, the same month that the IP2 steam generator inspection report was
received by NRR, the NRC Office of Public Affairs issued “NRC Technical Issues Papers and
Fact Sheets: Steam Generator Tube Issues.” This paper summarized the safety role of steam
generator tubes, tube degradation, tube repair criteria and inspection issues. The 1997 Technical
Issues Papers and Fact Sheet stated the following about the safety role of steam generator tubes:

       These [steam generator] tubes play an important safety role because they stand
       between the radioactive and nonnuclear sides of the plant. The integrity of the
       tubing is instrumental in minimizing leakage of water between the two sides.

                                                 14
       There is the potential that if reactor fuel is damaged and several tubes were to
       burst at once, it could lead to a fairly significant release of radioactive steam.

The 1997 Technical Issues Papers and Fact Sheet also stated the following relative to the critical
nature of steam generator tube inspections:

       The performance of inservice inspections is a critical element in maintaining
       steam generator tube integrity. The scope and frequency of these inspections vary
       from plant to plant based on the extent of the degradation. For plants with
       extensive amounts of degradation, 100% of the tubes are inspected at every
       outage.

       . . .In addition, inspection data analysis procedures and data analyst training have,
       in a number of instances, proven inadequate. This has the potential for significant
       tubing flaws to be missed. As a result, the staff issued a generic letter (Generic
       Letter 95-03 “Circumferential Cracking of Steam Generator Tubes”) that
       emphasizes the importance of performing comprehensive examinations of steam
       generator tubes using appropriate inspection techniques and equipment capable of
       reliably detecting steam generator tube degradation.

This 1997 Technical Issues Papers and Fact Sheet document was revised in September 1999 and
is now available as “TIP: 27-Steam Generator Tube Issues.”

NRC Staff Reviews a 1999 License Amendment Request from IP2

On December 1, 1998, IP2 submitted to the NRC a one-time extension of the steam generator
inspection interval from June 3, 1999, to June 3, 2000, thus modifying the TS 4.13.A.2.a
requirement of conducting this inspection no later than 24 calendar months after the previous
examination. The license amendment number 201 would allow the steam generator inspection
interval to coincide with the year 2000 refueling outage (IP2's 14th refueling outage). The
amendment request also proposed the removal of the requirement that IP2 receive NRC
concurrence on their planned steam generator examination program as outlined in TS 4.13.C.1.

In a letter to the NRC, IP2 said that an inspection of the steam generator tubes was completed on
June 13, 1997, during the last refueling outage. As support for the request for deferment of the
24-month steam generator examination interval, IP2 noted there would be 304 days of
nonoperation between the last steam generator inspection in 1997 and the scheduled inspection in
1999. IP2 explained that following the completion of the 1997 inspection, the plant returned to
service only to be shutdown on October 25, 1997, for an unscheduled maintenance outage. IP2
remained in cold shutdown condition for 304 days and was restarted on August 5, 1998. An
additional five days in cold shutdown was anticipated as a result of the planned mid-cycle outage
to perform periodic refueling cycle tests. IP2 asserted that a total of 309 days in cold shutdown
should permit extending the current inspection interval to April 16, 2000. An additional 48-day
extension on the steam generator inspection was requested by IP2 to coincide with the refueling

                                                 15
outage scheduled for June 3, 2000.

The IP2 letter requesting the additional extension reported that extending the steam generator
“operating” duration by 48 days would not significantly increase wear which might lead to tube
failure. IP2 believed because the steam generators were maintained in cold shutdown
temperature conditions for 304 days, the environment for tube corrosion was reduced to an
inconsequential level. IP2 believed that there would not be any appreciable steam generator tube
wear or degradation as a result of this extension. As a result, IP2 stated it had a high level of
confidence that corrosion growth and new corrosion initiation during the cold shutdown were
essentially nonexistent, and the steam generators were prepared to operate for a full fuel cycle
without incident.

OIG learned that IP2's license amendment request was staffed through DLPM. The Project
Manager for IP2, responsible for the appropriate disposition of the license amendment request,
told OIG he reviewed the license amendment request to determine the action being requested by
IP2, and he sent the amendment request to EMCB for a technical review and safety evaluation.
The Project Manager told OIG that if EMCB required additional information from IP2 to
complete the safety evaluation and needed to prepare an RAI, he would coordinate a conference
call between the EMCB technical reviewers, IP2, and himself. The purpose of the conference
call would be to provide the plant advance notice of the pending questions and to discuss any
issues which may require verbal clarification. The Project Manager told OIG that before the staff
submitted the RAI to IP2 for amendment number 201, several meetings were held with the
EMCB senior and junior technical reviewers to discuss IP2’s intended use of a new eddy current
probe. The Project Manager told OIG that there was also a conference call between the staff and
IP2 to discuss EMCB staff’s reasoning behind the RAI. The Project Manager said that after IP2's
amendment request was forwarded to EMCB, he had little involvement in the amendment review
process.

The Project Manager told OIG that at the time of IP2's submission of license amendment request
number 201, the staff had no reason to question IP2’s steam generator tube integrity or
degradation mechanisms because past inspections by IP2 did not yield results which were out of
the ordinary. According to the Project Manager, IP2’s submission of amendment request number
201 was a routine matter.

The EMCB Chief told OIG that once the license amendment request was received in EMCB, it
was assigned to a staff member for a safety evaluation and review. He informed OIG that all
technical reviews relating to steam generator matters were ultimately conducted under the
supervision of a senior staff engineer, thus relieving the Branch Chief of such responsibilities.
IP2’s license amendment request was assigned to a junior materials engineer in EMCB to review
and prepare a safety evaluation report. The EMCB Chief believed that the review of the request
for an inspection interval extension was an appropriate task for the junior engineer because it was
not a complicated assignment.

The EMCB junior engineer tasked with reviewing the license amendment request told OIG that

                                                16
she sought assistance from the EMCB senior engineer. The EMCB junior engineer
acknowledged being inexperienced in conducting reviews of license amendment requests
regarding steam generators. The junior engineer stated that she reviewed several documents in
an effort to evaluate the merits of IP2’s proposed amendment. The junior engineer specifically
recalled reviewing two documents - Generic Letter (GL) 91-04, which pertained to the periodic
inspection intervals required for PWR licensees and IP2's 1997 steam generator inservice
inspection report. Based on the junior engineer’s evaluation of the licensee’s amendment
proposal, the aforementioned documents, and advice from the senior engineer, she felt some
issues remained unclear. The junior engineer, with the assistance of the senior engineer,
prepared questions for the licensee in the form of an RAI.

OIG learned that the RAI sent to IP2 on May 5, 1999, asked four questions. The junior engineer
stated that the RAI requested IP2 to explain its methodology, techniques and assessment for
ensuring adequate structural integrity for the full fuel cycle. The junior engineer added that she
had concerns regarding the steam generators crack growth rates that were not addressed in the
original license amendment submittal. IP2 responded to the RAI on May 12, 1999. The junior
engineer believed that although IP2’s response to the RAI was adequate, she said that “It may
have been a little weak . . . ” OIG learned that the junior engineer did not ask additional
questions of the licensee, although she believed the responses to the RAI could have been more
robust. The junior engineer stated that a second request of questions was “frowned upon” by
NRR management. She recalled a 1999 staff meeting in which the NRR was told they should
attempt to issue only one round of RAIs to licensees. The junior engineer stated that “I felt like
we were stuck” with the IP2 responses to the RAI.

OIG reviewed NRR Office Letter No. 803, “License Amendment Review Procedures,” which
established procedures for processing license amendments for plants with an operating license.
Section 4.3 of the NRR Office Letter, states that “When an RAI is necessary, the staff should
make every effort to limit itself to one round of RAIs per TB [Technical Branch] for an
amendment application. The established timeliness goals are likely to be exceeded if multiple
RAIs are needed to complete the staff’s review of a license amendment application.”

The junior engineer stated that although IP2's answers to the RAI were not as complete as she
would have liked, she reviewed IP2's 1997 steam generator inspection report to enhance her
understanding of the issues in question. Based on her review, she was able to prepare a safety
evaluation report granting technical approval of the steam generator inspection deferment. The
junior engineer stated that she prepared a draft safety evaluation report and submitted it to the
senior engineer for review.




                                                17
The EMCB senior engineer told OIG that he has been involved with steam generators throughout
his 21-year career with the NRC and is considered the lead steam generator engineer within
EMCB. He said that he assisted the junior engineer in preparation of the RAI to ensure the
questions were adequate. The senior engineer informed OIG that he did not review the RAI
response from IP2, and he did not review any documentation used by the junior engineer to
prepare the RAI or safety evaluation report (SER). The senior engineer said that he did not
necessarily believe that the safety significance of the extension request warranted a review of the
1997 IP2 inspection results. The senior engineer said he concurred with the safety evaluation
report prepared by the junior engineer. He said, “I really didn’t consider this to be one of our
more risk significant issues. Therefore, the level of priority I was giving this in terms of my level
of attention, was relatively low.” The EMCB Chief who had final signatory authority for the
safety evaluation report, told OIG he concurred with the findings based on the presumed review
and approval by the senior engineer. The EMCB Chief told OIG that he presumed that both the
junior and senior engineer would have considered the degradation history associated with IP2's
steam generator tubes and the examination methods used in the inspection process during their
safety evaluation review.

In the SER, dated June 9, 1999, NRR reports the following:

       5.0 SUMMARY - Based on the above evaluation, the staff finds that conducting
       TS 4.13A.2.a during a mid-cycle surveillance in June 1999 to be unnecessary.
       NRC staff concludes that the licensee’s proposal to allow a one time extension to
       the steam generator tube inspection interval is acceptable and that there is
       reasonable assurance that steam generator tubes will maintain structural and
       leakage integrity for the entire cycle 14 operation. The staff also finds that since
       the licensee is required to submit their proposed steam generator examination
       program 60 days prior to the scheduled outage, receiving formal NRC
       concurrence is not necessary.

The Project Manager for IP2 told OIG that he reviewed the response to the RAI, but he relied on
the technical staff to attest to the sufficiency of IP2’s reply in using the information to draft the
safety evaluation report.

NRC Reviews Conducted Following the February 15, 2000 Event

Soon after the February 15, 2000, event at IP2, NRR requested that the Office of Regulatory
Research (RES) perform an independent technical review of the safety evaluation report prepared
by the NRR staff in support of the steam generator tube inspection extension granted in June
1999. At the conclusion of this review, the RES Director stated that his staff looked at all
available information to determine if IP2 had conducted a reasonable assessment of their steam
generators and if the NRR staff had completed a reasonable evaluation of the information
provided by IP2. The RES Director informed OIG that the RES review was assigned to a senior



                                                 18
metallurgical engineer in the Materials Engineering Branch (MEB) who was considered an
expert on steam generator tube integrity issues.

RES responded to NRR in a memorandum dated March 16, 2000. RES reported to NRR that it
could not reconcile several statements and conclusions in the safety evaluation report prepared by
NRR with the information NRR received from the licensee. Among other findings, the RES
memorandum stated that IP2's assessment of two forms of degradation found in their steam
generators was inadequate: (1) outside diameter stress corrosion cracking (ODSCC) above the
top of the tube sheet locations; and, (2) primary water stress corrosion cracking (PWSCC) at a
Row 2 U-bend. OIG learned that RES considered this to be in conflict with statements made in
the safety evaluation report which concluded that the tubes would meet structural and leakage
integrity through the end of the operating cycle.

The RES reviewer told OIG that his primary concerns with the safety evaluation report were
based on IP2’s answers to the RAI and the information in the IP2 1997 steam generator
inspection. The RES reviewer said that IP2 did not offer a satisfactory argument for some of the
degradation mechanisms that were present in their generators. Further, he commented that IP2
did a very poor job of conducting their steam generator tube operational assessment. The RES
reviewer told OIG that based on information that he reviewed, the analysis completed by IP2 was
very simple. As an example, he cited the case of the U-bend cracking that eventually caused the
failure on February 15, 2000. The RES reviewer believed that IP2's crack growth rate analysis
was faulty. The reviewer told OIG that he was surprised that this faulty analysis was accepted by
the NRR staff. The reviewer noted that in their operational assessment, IP2 said that this was the
first time that they detected this type of crack in the U-bend, that the crack was small, and that it
had taken 23 years to develop this crack. For these reasons IP2 concluded that the growth rate
would be minimal.

OIG interviewed an NRC contractor who was tasked by the NRC to review the cause of the
February 15, 2000, steam generator tube failure at IP2. The contractor has been employed by the
NRC, specifically by NRR, since the late 1970s, and he is considered a leading expert in the
eddy-current testing and data evaluation procedures which are used to inspect and assess viability
of PWR steam generator tubes. In addition to assisting in the evaluation of the cause of the
February 15, 2000, steam generator tube failure at IP2, the NRC contractor reviewed IP2's 1997
steam generator inspection data. The NRC contractor informed OIG that the cause of the
February 15, 2000, tube failure was a flaw that was indicated but missed during the 1997 IP2
inspection of the U-bend of row 2, column 5 in steam generator 24. The NRC contractor said
that the 1997 IP2 steam generator inspection was conducted using probes and procedures
designed to detect outer diameter defects, rather than the inner diameter defects that are present
in the U-bends. The NRC contractor commented that other factors which contributed to the tube
defect being missed during the 1997 inspection included poor eddy current analyst performance
and inferior, ambiguous, eddy current guidelines in use at the time.




                                                 19
The NRC contractor told OIG that his recent review of IP2's 1997 steam generator inspection
results revealed that approximately eight defects were indicated but missed. The contractor
stated,

       . . . the licensee had not found all of the defects that were present in 1997. In fact,
       they missed the vast majority of them in their inspection. I think that if they had
       done a good inspection, they would have--namely, with a high frequency probe,
       they would have caught this.

The NRC contractor informed OIG that IP2 found one inner diameter defect in steam generator
24 U-bend, Row 2, Column 67, during the 1997 steam generator examination. The NRC
contractor concluded that the detection of this defect in the U-bend region of the steam generator
tube should have alerted IP2 to inspect the U-bend area of tubes for more defects. The NRC
contractor said the U-bend region is very hard to inspect and is even more difficult at IP2 because
the IP2 steam generators have a great deal of copper and magnetite on the outside surface of the
tubes that are causing problems in the U-bends. Additionally, the NRC contractor said that IP2
has relatively old steam generators which make them more susceptible to a tube rupture. The
NRC contractor told OIG that the inner diameter defect in the U-bend region found during the
1997 inspection, the age of the IP2 steam generators, and the copper and magnetite deposits,
should have been sufficient warning of a possible steam generator tube rupture.

The NRC contractor told OIG that use of a smaller, high frequency eddy current probe eliminates
signal interference caused by copper and magnetite deposits. In reprofiling the 1997 IP2 eddy
current data of the tube that ruptured on February 15, 2000, using two different frequencies, the
NRC contractor was able to ascertain that the depth of the crack was “100 percent through-wall
in several places.”

The NRC contractor told OIG that a high frequency probe had been used in the past at Kewaunee
Nuclear Power Plant and at Maine Yankee Nuclear Power Plant in 1995; however,
Westinghouse, the contractor responsible for conducting IP2's steam generator inspections,
resisted using such a probe.

OIG reviewed the April 14, 2000, report, “Root Cause Evaluation for Steam Generator Tube
Rupture Event of February 15, 2000,” prepared by IP2 which summarized the mechanisms by
which the leakage occurred and summarized the technical investigation of the primary system to
secondary system leakage event. This document reported that, following the February 15, 2000,
rupture of the row 2, column 5 steam generator tube, IP2 re-analyzed the1997 inspection data for
this tube. IP2 found that at the time the data was collected the flaw in the tube “had an average
depth of 63-71% and a maximum depth of 92%.”

An NRC inspector who was a member of the NRC Augmented Inspection Team (AIT) that was
conducted as a result of the February 15, 2000, tube failure, made comments to OIG similar to
those of the NRC contractor regarding IP2's 1997 steam generator inspection. He said, “I think
there were some problems with the inspection they conducted in [19]97, particularly with the

                                                 20
quality of the eddy-current data they were collecting.” According to the AIT member, contractor
personnel hired by the licensee to perform IP2's past steam generator inspections recognized, in
hindsight, that the 1997 data, in particular inspection of the tube that failed, was not sufficient.

A RES senior metallurgical engineer assigned to review the IP2 steam generator issue, told OIG
that he believed that the NRC missed opportunities to gain insight into the extent of the steam
generator degradation at IP2. He said the first opportunity came as IP2 was conducting their
steam generator tube inservice inspection in 1997. The RES senior metallurgical engineer said
that the NRC could have provided more oversight of the licensee as they conducted their eddy-
current probing of the steam generators. He continued by saying that another opportunity came
when the licensee submitted its 1997 steam generator inspection. The RES engineer said that the
NRC staff should have reviewed the inspection report. He said that if the NRC staff had
conducted a detailed review of the 1997 steam generator inspection results, they might have
recognized indicators of the tube that ruptured in February 2000. The RES engineer commented
that yet another opportunity came during the 1999 review of the IP2 request for extending the
steam generator inspection interval. The RES engineer told OIG that the NRC had asked the
right questions; however, the answers were not very good.

Another NRC inspector assigned to the AIT responsible for review of the steam generators made
similar comments to OIG regarding the indicators which surfaced during the 1997 IP2 steam
generator inspection. The AIT member agreed with the RES engineer that IP2's operational
assessment conducted in 1997 was not especially vigorous. He also believed the quality of data
collected by IP2 was not very robust, and IP2 missed a defect which indicated a possible tube
failure. He added that NRR should have been more questioning of the 1997 steam generator
inspection. He commented that the NRC should be more vigilant and intrusive in the steam
generator inspection processes, especially with plants such as IP2 that are operating with old
generators.




                                                 21
NRC is Aware of the Steam Generator Leakage at IP2 during 1999

OIG discovered that the NRC was aware of some leakage of the IP2 steam generators on three
different occasions since the summer of 1999. The AIT manager said that during the AIT
inspection it was discovered that IP2 operators noticed marginal leakage in either June or July
1999, which they felt was possibly coming from steam generator number 24. Later in October
1999 while the plant was shut down, one of the NRC resident inspectors at IP2 told OIG that he
recalled being advised by IP2 operators that they were tracking and trending a small amount of
leakage; however, he related that IP2 operators were unable to obtain positive confirmation that
the leak was in steam generator number 24. The Resident Inspector stated that the NRC
oversight practice under these circumstances is to provide guidance and ensure the licensee
monitors any changes in the situation. This was what they instructed IP2 operators to do.

The April 14, 2000, “Root Cause Evaluation for Steam Generator Tube Rupture Event of
February 15, 2000,” prepared by IP2, contains a leak rate history chart covering the period of
January 1, 1999, through February 11, 2000. OIG reviewed the chart which revealed that during
this period of time there were several days in January without reported leakage and a period of
approximately a month and a half during September and October with no data recorded on the
chart. The greatest leakage was approximately 4.5 gpd and was reported to have occurred during
the period from October 22, 1999 to November 5, 1999.

The NRC Project Manager acknowledged to OIG that the steam generator leakage had been
tracked by IP2 in the September/October 1999 time frame, but he said that at the time he was
unaware of the leakage. The Project Manager told OIG that until several years ago, he
participated in the 7:30 a.m. daily conference call between the Region and the Resident
Inspectors at IP2. He said that for personal reasons he changed his work schedule to begin his
work day at 7:45 a.m. The Project Manager told OIG that because of his revised work schedule,
he was unable to participate in the 7:30 a.m. daily conference call. The Project Manager said that
the leakage being monitored by IP2 could have been discussed during one of the conference calls
that he missed. He said that he relied on the Region and resident inspectors to notify him in the
event of a significant issue but that the level of leakage at that time had not warranted such
notification.

OIG reviewed the Project Manager’s handbook which describes the role of the Project Manager
as “the focal point of information for the plant and is the only person who has a view of the total
aspects of the plant.” Having comprehensive knowledge of past and present plant issues, the
Project Manager is expected to use this knowledge base to focus on the early identification of
problem areas. The handbook outlines the degree of familiarity and contact the Project Manager
is expected to have of those components within the NRC, as well as those technical and
specialized resources outside of the NRC, which would impact on the efficiency with which the
NRC fulfills its regulatory mission.




                                                22
The IP2 Resident Inspector informed OIG that there was significant change in the leakage in
early February 2000. On February 6, 2000, the nitrogen-16 monitor which tracks leakage from
the primary system to the secondary system, indicated a leak rate of approximately 1.5 gallons
per day (gpd). The Resident Inspector stated that this information was provided to Region I
management for additional review and guidance. Region I instructed the resident inspectors to
initiate discussions with IP2 operators to confirm their planned course of action should the leak
exceed 10 gpd. OIG ascertained that IP2's technical specifications leakage limit was 432 gpd.

The Resident Inspector stated that neither he nor Region I were overly engaged with IP2
regarding the small leak in the steam generators. He stated that there was not an inordinate
amount of concern over the leakage because it was well below the technical specification limit of
432 gpd. The Resident Inspector acknowledged that he did not seek additional information
regarding the condition of the steam generators, such as the extent of degradation.




                                                23
II.    NRC Oversight of IP2 Emergency Preparedness

Background

At each NRC-licenced nuclear power plant there are on-site and off-site emergency plans to
assure that adequate measures are taken to protect the public in the event of a radiological
emergency. Federal oversight of emergency planning for nuclear power plants is shared by the
NRC and the Federal Emergency Management Agency (FEMA) through a memorandum of
understanding. The memorandum is responsive to a Presidential Directive codified as 44 Code
of Federal Regulations (CFR) Parts 350, 351, and 352, which mandates that FEMA will take the
lead in off-site emergency planning and response and that the NRC will assist FEMA in carrying
out this role. The NRC retains ultimate statutory responsibility for the radiological health and
safety of the public and the types of activities that the NRC coordinates and is accountable for
during an emergency at a licensed facility can be found in NUREG/BR-0123: “RCM-96,
Response Coordination Manual.”

Each nuclear power plant exercises its on-site emergency plan annually. In addition, each plant
conducts biennial coordinated exercises with off-site state and local governmental authorities
within the plume exposure pathway emergency planning zone (EPZ) to help ensure that off-site
emergency plans function properly. For planning purposes, the Commission has defined a plume
exposure pathway EPZ consisting of an area about 10 miles in radius and an ingestion pathway
EPZ about 50 miles in radius around each nuclear power plant. EPZ size and configuration may
vary in relation to local emergency response needs and capabilities as affected by such conditions
as demography, topography, land characteristics, access routes, and jurisdictional boundaries.

The IP2 site is geographically located on the east bank of the Hudson River approximately 24
miles north of New York City (Bronx) boundary line, at Indian Point, Village of Buchanan,
Town of Cortlandt in northwestern Westchester County. The site is approximately 2.5 miles
southwest of the city of Peekskill, NY. IP2's 10 mile EPZ impacts portions of Westchester,
Rockland, Putnam and Orange counties. Each county has its own emergency operations center
(EOC) which coordinates their emergency response activities with the State Emergency
Management Office (SEMO), State of New York.

NRC Had Longstanding Concerns With IP2 On-Site Emergency Preparedness

OIG learned that since 1998, NRC inspectors at Region I have identified deficiencies related to
the emergency preparedness program at IP2. For example, in June 1998, the NRC inspected the
emergency preparedness program at IP2 and evaluated its performance during a full-participation
exercise. While NRC determined that the emergency preparedness program was adequate, a
number of procedural discrepancies were noted. One problem identified by inspectors during
this evaluation had been previously identified during an exercise in 1994. As a result of the1998
inspection, IP2 began to implement corrective actions.

Region I emergency preparedness inspectors told OIG that in September 1999, Region I led an

                                               24
emergency preparedness exercise inspection at IP2 to verify the adequacy of corrective actions
taken in response to the 1998 full-participation exercise. During the inspection, Region I
inspectors identified six training and communication deficiencies related to the plant’s Technical
Support Center and Operations Support Center that had been identified during earlier NRC-
evaluated exercises. As NRC stated in its inspection report, these findings indicated IP2’s
overall inability to detect and correct problems and identify their root causes. NRC inspectors
also noted there was an apparent ineffectiveness in the emergency preparedness training process
and weak oversight of the emergency preparedness program. As a result of the inspection, NRC
determined that two, Severity Level IV (non-cited) violations occurred. One NRC inspector told
OIG that IP2 performed poorly during the September 1999 drill even after having practiced the
drill several times prior to the inspection and knowing that an NRC inspector would be on-site.
The inspector noted to OIG that it did not appear that IP2 had “a commitment to excellence,” and
that the plant did only “enough to get by.”

As a result of NRC’s inspection findings, IP2 committed to the NRC to implement corrective
actions and to conduct another exercise for the NRC evaluation in June 2000. In early February
2000, the NRC staff discussed the emergency preparedness program with IP2. During that
discussion, IP2 informed NRC that it had scheduled its follow-up exercise for March 2000.

Approximately two weeks later, on February 15, 2000, IP2 experienced a steam generator tube
rupture. During the AIT inspection conducted immediately after the event, numerous problems
associated with IP2's on-site emergency preparedness were again evident.

OIG’s review of the AIT report revealed that Region I made three preliminary inspection findings
of low to moderate safety significance based on the results of the inspection. These
programmatic deficiencies were initially identified by the AIT as (1) an untimely augmentation
by the emergency response organization, (2) an untimely accountability of on-site radiation
emergency workers, and (3) inconsistent dissemination of information to the media and a local
official during the course of the event. These findings were also determined to be apparent
violations of NRC requirements because IP2 failed to meet NRC emergency planning standards
(10CFR 50.47). NRC identified six additional emergency preparedness findings involving
failures to implement regulatory requirements. However, because the findings had been entered
into IP2’s corrective action program and were considered to be of very low safety significance
the violations were not cited.

At the May 2000, Senior Management Meeting (SMM), IP2 emergency preparedness
performance issues were discussed as reflected in the following excerpt from the minutes of the
SMM:




       Repeat problems in the area of emergency preparedness (EP) were identified

                                               25
       during the August event and a subsequent exercise. These problems had also been
       observed during previous inspections and exercises. These observations reflected
       continued difficulty with implementation of the corrective action program.

NRC Inspectors File Differing Professional View (DPV) Paper Due to On-Site Emergency
Preparedness Concerns

On March 30, 2000, two emergency preparedness inspectors from Region I filed a DPV with
Region I management due to continuing questions about the readiness of IP2's emergency
preparedness program. By way of background, the DPV process is the vehicle within the NRC
by which staff can submit their professional viewpoint on virtually all matters pertaining to the
NRC’s mission. In their draft DPV submission, the filers expressed concern that NRC would
authorize the plant to restart following the February 15, 2000, event prior to conducting an
exercise to demonstrate that its emergency preparedness program functioned satisfactorily. They
noted that while IP2 committed to conducting the exercise by June 2000, they were concerned
that IP2 would be permitted to restart prior to that time. One of the DPV filers stressed that an
exercise is the only performance-based way to inspect emergency preparedness.

The staff who filed the DPV told OIG that they eventually withdrew their DPV. They stated that
Region I senior management, particularly the Regional Administrator, were helpful in addressing
their concerns. They stated that during discussions with IP2 officials, Region I management
stressed the importance of having a functional emergency preparedness program. At a meeting at
Region I on April 26, 2000, IP2 committed to conducting an on-site exercise prior to restart.

An NRC team conducted a follow-up safety inspection from May 15 through June 2, 2000, at IP2
and focused on the on-site emergency preparedness exercise conducted on June 1, 2000. The
inspection also included a complete review of the IP2 emergency preparedness program. NRC
found that the short-term corrective actions taken in response to the problems highlighted during
the February event were adequate. While IP2 continued to exhibit some weaknesses in the Joint
News Center activities, the IP2 emergency response organization demonstrated its ability to
implement the on-site emergency plan during the June 1, 2000, exercise.

NRC inspectors told OIG that the inspection revealed no “show-stopping” issues at IP2 related to
emergency preparedness. However they noted that while the plant showed overall improvement,
the inspection also identified existing chronic problems with the plant’s emergency preparedness
program which made it “obvious that they [IP2] had a long way to go.”

On-Site Emergency Preparedness Problems Impact Off-Site Emergency Preparedness

OIG discovered that IP2's on-site emergency preparedness problems impacted the off-site
emergency preparedness process. Emergency Operations Center (EOC) representatives from the
four counties surrounding IP2 told OIG that the initial information provided by IP2 concerning
the February 2000 incident was inaccurate. One of the EOC officials characterized his attempt to
obtain information from IP2 as “frustrating.” Many of the EOC officials told OIG that on

                                               26
February 15, 2000, they were notified that an Alert had been declared at IP2. At that time, IP2
reported that a steam generator tube had leaked and no radioactive material had escaped into the
environment. The EOC staff and centers were activated and they executed their plans based
upon the information they had received.

OIG was told that several hours into the Alert, EOC staff and emergency response personnel,
such as police, fire and rescue, learned that there was a release of radioactive materials from IP2.
Several EOC officials and command level emergency responders told OIG that they had learned
of the release from a media report issued by an IP2 spokesperson. Reportedly, the IP2
representative told the media that a release had occurred but it was below the plant technical
specifications.

Although the radioactive release was reportedly below technical specifications, many of the EOC
staff and emergency responders realized the significance of any release. These individuals told
OIG that their primary concerns were to provide the public with the correct information and to
ensure their safety. They also expressed concern that the changing information provided by IP2
relative to the existence or extent of a leak had damaged the public's trust in the EOCs and hurt
the capabilities of the first responders to deliver the appropriate services in an emergency
situation. Many of the public officials questioned whether they could rely on IP2 as a credible
source of information.

Several of the EOC officials and emergency responders explained to OIG that they were placed
in an awkward position because of the inaccurate information IP2 disseminated to the public.
They also felt that this inaccurate information could have affected the EOC's ability to engage
their contingency plans. In one EOC official's opinion, IP2's intent was to time the release of
information to avoid the late evening news.

OIG was told of an incident where inconsistent information was disseminated. A command level
first responder told OIG that once he learned that an alert had been declared, which was several
hours into the incident, he had a member of his command respond to IP2 to ascertain the nature
of the alert. At that time, IP2 representatives reported to this subordinate that a leak had not
occurred. Later, IP2 staff recanted that information and reported that a small leak had occurred
in a steam generator tube. This off-site official told OIG that he was subsequently told by IP2
staff that it was a large leak. This episode has caused him to question the credibility of IP2.

To address this issue, EOC representatives told OIG that they are presently engaged with IP2 to
enhance the flow of information between the parties. They also noted that IP2 has been receptive
to the use of technology to assist in this endeavor, such as video-teleconferencing between all
parties.



IP2 Environs Reportedly Require Immediate Emergency Assessment and Consistent and
Timely Notification Processes

                                                 27
Many of the EOC and first responders described IP2's EPZ as one of the most unique in the
country. It was described to OIG as a densely populated zone with more than 280,000
inhabitants. OIG discovered that the private residences of President and Mrs. Clinton and the
Governor of New York are within close proximity of the EPZ.

Several first responders expressed concerns to OIG that due to population density and the road
conditions in the area, any failure to maintain the integrity of the evacuation routes would bring
the “plan” to a complete stop. Additionally, within the certain sections of the EPZ there was a
growing segment of the population where English is spoken as a second language. These
concerns among others caused many of the officials interviewed to comment that it was critical
that IP2 make immediate and accurate notifications to the appropriate off-site authorities in the
event of an emergency at IP2. These officials considered this type of notification to be
paramount in maintaining the public's safety.

All of the EOC officials told OIG that the IP2 technical representatives (TR) tasked to respond to
the EOCs on February 15, 2000, to provide technical expertise were delayed as much as two
hours in arriving at the EOCs. Several EOC officials explained that during the early stages of the
Alert, the TR's expertise was needed to interpret the data coming from the plant. OIG learned
that during this absence, one EOC utilized the services of a volunteer firefighter with
professional experience in the nuclear power industry to interpret the incoming information.
This individual’s assessment aided that EOC in its decision making process. OIG was told that
at the time of the event, the TR's tasked to respond to the EOC's were not members of IP2's
emergency response plan; however, they are now being incorporated into the process.

Certain EOC officials, command level emergency responders, and public officials told OIG that
they have learned that IP2 had known for several days that a steam generator tube was leaking.
Understanding that the nature of the leak did not require IP2 to notify the EOC’s, many officials
told OIG that historically IP2 has notified them on less significant events, but in this event
neither the officials interviewed nor their staff had been notified of a possible event.

A command level emergency responder also provided a noteworthy example of IP2's inconsistent
notification process. This official told OIG that direct telephone communications capabilities
exist between IP2 and his office. The circuit is tested daily and has been used in the past to
advise his command of less significant events. However, on February 15, 2000, and following
another event at IP2 which occurred in August 1999, IP2 personnel did not notify his office.
These inconsistencies have caused this official and other area emergency responders to question
IP2's credibility and performance. One emergency responder commented that he was confident
that the EOCs would notify his agency in a timely manner, but he was concerned that the EOCs
would not receive timely notification from IP2.

OIG also determined that during the February 15, 2000, event at IP2, the United States Secret
Service personnel assigned to President Clinton's private residence were not advised.

A command level first responder summarized to OIG the need for accurate and expedient

                                                28
notifications to the EOCs and the first responders by stating that this information is integral to
their ability to assess the situation and implement certain actions to protect the public's safety.
The responder noted that any delay would drastically impact the emergency preparedness and
would have an adverse effect on the public's safety.

OIG reviewed NUREG/BR-0123: “RCM-96, Response Coordination Manual which outlines the
responsibility for the radiological health and safety of the public and the types of activities that
the NRC is accountable for during an emergency at a licensed facility.

NUREG/BR-0123 delineates the responsibilities of the NRC during a radiological accident with
emphasis on providing support to state and local officials and coordinating functions with federal
agencies. The following excerpt applies to the NRC’s actions during the “Monitoring Phase of
Normal Mode” and during the “Standby” mode:

       Monitoring Phase of Normal Mode: The situation may be complex but well
       understood with no likely safety consequences projected given existing
       conditions. The region remains in charge, staffing a small team in its Incident
       Response Center. Headquarters would provide some assistance and support.
       State and local officials would be notified.

       Standby: This situation is sufficiently complex or uncertain to require additional
       monitoring and preparations to increase the NRC response quickly should it prove
       necessary. The NRC Operations Center at headquarters will fully staff and direct
       the NRC response activities. The regional office will initiate the necessary
       preparations to send a team to the site. Other Federal organizations are notified
       but are not directly involved. State and local authorities are notified by NRC.
       They will have been notified by the licensee and may call the NRC for
       interpretation of the event and response.

Off-Site Perceptions of IP2's Emergency Preparedness

Several EOC officials and first responders told OIG that there is a perception that in the past
several years IP2 has reduced its resources dedicated to emergency preparedness. One EOC
official said that there appeared to be less outreach by IP2 to the counties regarding emergency
preparedness matters. He cited the difficulty he experienced in having telephone calls returned
from IP2 regarding matters concerning the EOC. This assessment was echoed by another EOC
official who also described a decreasing interaction between his EOC and IP2.



A third official told OIG that IP2 appeared to have experienced staff reductions in the area of
emergency preparedness. This official said his staff has not had any recent visits to the site and
most of his contact with IP2 has been by telephone. At times, this has been problematic. He
speculated that the fact that IP2 was for sale may be a factor in the under-staffing of the

                                                  29
emergency preparedness staff.

Local and County Officials Seek Increased Interaction with NRC

A majority of the local and county officials interviewed by OIG recommended that the NRC
increase its interaction with representatives of the local and county governments to keep them
informed of events at IP2. OIG received a common complaint from the public officials that NRC
failed to clearly communicate information to the public. One public official representing a
community within the EPZ told OIG that NRC resident inspectors have been invited to their
community meetings but they have not participated.

The OIG learned that the EOC official’s interaction with the NRC was so limited that many did
not know that NRC had resident inspectors assigned to the plant. As one EOC official told OIG,
the NRC has "historically been invisible on issues that impact the community. The only time the
public hears from the NRC is when the NRC announces its intention to hold a public meeting."
This official also explained that any information his office received regarding the NRC’s
involvement with IP2 was obtained from the local media.

Another EOC official told the OIG that when Indian Point 3 was on the NRC’s Watch List, he
attended what he described to be NRC sponsored Quality and Assurance meetings. He said that
he found the information presented in those sessions was beneficial. Consistent with the above,
several EOC officials interviewed by OIG recommended NRC resident inspectors conduct
routine briefings on the status of IP2. The exchange of information would be beneficial and
would allow the EOC's to make timely modifications to their emergency plans. A majority of the
EOC officials expressed their view that there should be more of a partnership between the NRC
and the EOC officials.

OIG also discovered that several EOC officials believed that the NRC should serve as
independent source from which they could obtain objective information regarding on-site
conditions in either emergency or non-emergency situations. These officials believed that such a
resource could be a valuable asset for the communities. They speculated that if such partnership
existed on February 15, 2000, the EOC’s would have been able to corroborate information about
the incident which would have aided their performance.




                                               30
III.   Adequacy of NRC Staff’s Review of IP2 Restart Proposal

Shortly after the February 15, 2000, event at IP2, NRC began a detailed technical dialogue with
IP2 to understand the root cause of the steam generator tube failure and subsequent licensee
corrective actions. On April 14, 2000, IP2 provided the NRC with its root cause analysis of the
steam generator tube failure. Subsequently, on June 2, 2000, IP2 provided NRC a discussion of
its corrective actions and justification for continued operation with the existing steam generators.

The NRC is conducting a comprehensive review of IP2’s proposal to resume plant operation. In
accordance with its operating license, IP2 must obtain NRC approval prior to plant start-up. OIG
determined that the NRC staff has been extensively engaged on steam generator tube integrity
activities at IP2 since the February 2000 event. Staff activities have included direct observation
of steam generator inspections performed at IP2 and detailed review of inspection data and
results as they relate to steam generator tube integrity. NRC has stated that approval of the
restart of IP2 will not occur unless NRC concludes that the steam generators meet technical
standards and will adequately protect public health and safety.

An NRC staff member expressed concern to OIG about the speed at which NRC was conducting
its review of IP2’s restart proposal. The NRC staff member was concerned that statements made
by NRC senior management to IP2 appeared to overstate the staff’s progress and could result in
unreasonable expectations by IP2. Alternatively, the employee stated that such comments could
result in undue pressure on the NRC technical staff by NRC senior management to fulfill IP2’s
expectations.

OIG interviewed a number of NRC staff members at Headquarters and Region I who have been
involved in various aspects of the restart review. The NRC staff told OIG that they were not
aware of constraints by NRC management to reach predisposed conclusions, nor were they aware
of undue pressure placed upon them in the form of unreasonable time constraints or limits on the
scope of their technical review.

An NRC reviewer noted that OIG’s oversight of the staff’s technical review to be beneficial in
that it would help ensure that working-level staff were not pressured to reach a particular
conclusion. The employee explained that, in terms of integrity of the process, working-level staff
and managers were less likely to succumb to pressures from higher management if they were
aware of OIG’s presence.




                                                 31
                                     FINDINGS

1.   NRC’s Oversight of Events Leading Up to the February 15, 2000, Steam Generator
     Tube Rupture at IP2

     !     OIG determined that the NRC and nuclear industry had long-standing concerns
           about the loss of integrity of steam generator tubes used on PWRs due to a variety
           of degradation mechanisms. Degradation problems particular to Westinghouse
           Model 44 steam generators resulted in all plants with this model steam generator
           replacing their steam generators, except IP2. The NRC has also been long aware
           of steam generator tube and other problems at IP2. Nevertheless, the NRC did not
           conduct a technical review of the July 29, 1997, IP2 steam generator inspection
           report when it was submitted to NRR. However, OIG noted that steam generator
           inspections are of sufficient importance to be included in plant technical
           specifications. IP2 technical specifications mandate steam generator inspections
           to be conducted no less than every 24 months and the inspection report to be
           submitted to the NRC no later than 45 days after completion of the inspection.
           OIG also found that had NRC staff or contractor’s with technical expertise
           evaluated the 1997 results of the IP2 steam generator inspection, the NRC could
           have identified the flaw in the U-bend of row 2, column 5, in steam generator
           number 24 that was indicated in the inspection report. This flaw, which was
           recently determined to be nearly 100 percent through the tube wall in 1997, was
           the cause of the February 15, 2000, IP2 steam generator tube rupture. OIG found
           that the 1997 IP2 steam generator inspection results were not reviewed by the
           NRC staff for technical quality or sufficiency because the staff is not required to
           conduct such a review.

     !     OIG determined that NRR’s review of a 1999 license amendment request
           submitted by IP2 was not adequate. The 1999 IP2 license amendment request
           number 201, asking for a 1 year extension for the steam generator inspection, was
           approved by NRR based on a safety evaluation completed by a junior engineer
           with limited experience in steam generator inspection techniques. The safety
           evaluation review included the junior engineer’s evaluation of the 1997 steam
           generator inspection results. During the safety evaluation review process the
           junior engineer was supposed to receive assistance from a senior engineer with
           extensive steam generator experience. OIG determined that during the
           amendment review process, the senior engineer did not review the source
           documents submitted by IP2 nor did he review the 1997 IP2 inspection report.
           OIG also noted that other technical expertise available to the NRR staff was not
           employed to review the 1997 inspection report or the amendment request.

           OIG also found that during the amendment review process, the NRC requested
           additional information from IP2 in the form of an RAI to clarify outstanding
           issues relative the steam generator inspection program. Although the junior

                                           32
           engineer was not completely satisfied with the response to the RAI, no additional
           questions were asked by the NRC of IP2.

           OIG found nearly no involvement in the amendment request review by either the
           NRR Project Manager assigned to IP2 or the EMCB Branch Chief. OIG also
           found that the NRR staff believed that the level of review given to IP2's license
           amendment request 201 was acceptable because steam generator issues at IP2
           were not viewed as significant to NRC’s oversight and regulation of the plant.

2.   NRC Oversight of IP2 Emergency Preparedness Issues

     !     OIG found that the NRC considered IP2 to be a plant that struggled with various
           challenges in the area of emergency preparedness, but the NRC decided that
           allowing IP2 time to correct its deficiencies outweighed the benefit of increasing
           NRC oversight.

     !     OIG also found that the NRC inspectors from Region I had concerns about
           licensee on-site performance during emergency preparedness exercises from 1998
           to present. They had identified significant, long-standing weaknesses that had not
           been corrected. Because of IP2's poor performance in pre-announced drills of a
           known scenario, NRC inspectors questioned IP2's capability to perform during an
           actual event. OIG learned that recurring weaknesses that had gone uncorrected
           appeared to play a role in the poor emergency response performance of IP2 during
           the February 15, 2000, event.

     !     Concerning off-site emergency preparedness issues, OIG found that
           communication between county EOCs and the NRC was non-existent. County
           officials view the NRC as the only independent source they have to provide them
           credible, objective information. Those officials desire personal interaction on a
           routine basis with the NRC staff of IP2 to discuss plant activities. OIG also
           determined that disjointed and misinformation from IP2 during the February 15,
           2000, incident adversely impacted the off-site emergency preparedness process.

3.   Adequacy of NRC Staff’s Review of IP2 Restart Proposal

     !     OIG found that, although there may have been some initial concerns by the NRC
           staff evaluating IP2's request for restart, NRC management has not allowed time
           constraints to impact on the staff’s ability to conduct a thorough review of the data
           presented by IP2 in its June 2000 restart proposal.




                                            33
34
35
                  LIST OF ACRONYMS


AIT    Augmented Inspection Team

BWR    boiling water reactor

CFR    Code of Federal Regulations

DE     Division of Engineering

DLPM   Division of Licensing and Project Management

DPV    Differing Professional View

EMCB   Materials and Chemical Engineering Branch

EOC    Emergency Operations Center

EP     emergency preparedness

EPA    U.S. Environmental Protection Agency

EPRI   Electrical Power Research Institute

EPZ    Emergency Planning Zone

ERO    Emergency Response Organization

FEMA   Federal Emergency Management Agency

GL     Generic Letter

gpd    gallons per day

id     inner diameter

IN     Information Notice

IP2    Indian Point Unit 2 Power Plant

ISI    inservice inspection

MEB    Materials Engineering Branch

                                 36
mrem    millirem

NRC     U.S. Nuclear Regulatory Commission

NRR     Office of Nuclear Reactor Regulation (NRC)

NUE     Notification of Unusual Event

od      outer diameter

ODSCC   outer diameter stress corrosion cracking

OIG     Office of the Inspector General (NRC)

PWR     pressurized water reactor

RAI     request for additional information

RCS     reactor coolant system

RES     Office of Regulatory Research (NRC)

SCC     stress corrosion cracking

SER     safety evaluation report

SG      steam generator

SMM     Senior Management Meeting

TS      technical specifications




                                    37
                        GLOSSARY OF TECHNICAL TERMS


Cold Shutdown - The term used to define a reactor coolant system at atmospheric pressure and at
a temperature below 200 degrees Fahrenheit following a reactor cooldown.

Containment - A gas-tight structure or other enclosure around a nuclear reactor to confine fission
products that otherwise might be released to the atmosphere in the event of an accident.

Cooldown - The gradual decrease in reactor fuel rod temperature caused by the removal of heat
from the reactor coolant system after the reactor has been shutdown.

Degradation Mechanism - mechanical or chemical processes which effect deterioration of a
component

Eddy-Current Techniques - A non-destructive examination procedure used in the inspection of
steam generator tubes.

Fission Gases - Those fission products that exist in the gaseous state. In nuclear power reactors,
this includes primarily the noble gases, such as krypton and xenon.

Fuel Cycle - The sequence of steps involved in supplying, using reprocessing, and disposing of
the fuel used in nuclear reactors.

License Event Report (LER) - Reports submitted by licensees in accordance with 10 CFR 50.73
to notify the NRC within 30 days of the occurrence of any described in 10 CFR 50.73.

Millirem (mrem) - One thousandth of a rem.

Noble Gases - A gaseous chemical element that does not readily enter into chemical combination
with other elements. An inert gas. Examples are helium, argon, krypton, xenon, and radon.

Pressurized Water Reactor (PWR) - A power reactor in which heat is transferred from the core to
an exchanger by high temperature water kept under high pressure in the primary system. Steam
is generated in a secondary circuit. Many reactors producing electric power are pressurized water
reactors.

Primary System - A term that may be used for referring to the reactor coolant system.

Secondary System - The steam generator tubes, steam turbine, condenser, and associated pipes,
pumps, and heaters used to convert the heat energy of the reactor coolant system into mechanical
energy for electrical generation. Most commonly used in reference to pressurized water reactors.

Shutdown - A decrease in the rate of fission (and heat production) in a reactor (usually by the

                                                38
insertion of control rods into the core).

Steam Generator (SG) - The heat exchanger used in some reactor designs to transfer heat from
the primary (reactor coolant) system to the secondary (steam) system. This design permits heat
exchange with little or no contamination of the secondary system equipment.

Technical Specifications (TS) - Part of an NRC license authorizing the operation of a nuclear
production or utilization facility. A technical specification establishes requirements for items
such as safety limits, limiting safety system settings, limiting control settings, limiting conditions
for operation, surveillance requirements, design features, administrative controls, initial
notification, and written reports. These are included in the 10 CFR Part 50 and have legal force
and effect.

Safety Evaluation Report (SER) - The NRC staff evaluation of the licensees documents
submitted for proposed changes to the nuclear plant, then used by NRC to determine whether to
issue a construction permit or license, or to issue a license amendment for a major modification
to the plant.

Whole-body Exposure - An exposure of the body to radiation, in which the entire body, rather
than an isolated part, is irradiated.




                                                 39
